No. 20A161
IN THE

Supreme Court of the United States
STATE OF OKLAHOMA
Applicant,
v.
SHAUN MICHAEL BOSSE
Respondent.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 7th day of May 2021, caused paper copies of the Response In
Opposition To Application To Stay Mandate of the Oklahoma Court of Criminal Appeals
Pending Review on Certiorari to be delivered to the Court, and to be served via
overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
Mithun Mansinghani
Solicitor General
Office of the Oklahoma Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
(405) 522-4392
mithun.mansinghani@oag.ok.gov
Counsel for State of Oklahoma

/s/ Zachary C. Schauf
Zachary C. Schauf

